SUPREME COURT

FILED
MAR 3 0 2021

State Bar Court No, 17-C-03795

Jorge Navarrete Clerk

S266618

Deputy

IN THE SUPREME COURT OF CALIFORNIA
£n Banc
In re MICHAEL BERNARD POTERE on Discipline.
The petition for review is denied,
The court orders that Michael Bernard Potere, State Bar Number 302569, is
disbarred from the practice of law in California and that his name is stricken from the roll
of attorneys.
Michael Bernard Potere must also comply with California Rules of Court, rule
9,20, and perform the acts specified in subdivisions (a) and (c) of that rule within 30 and
40 calendar days, respectively, after the effective date of this order.
Costs are awarded to the State Bar in accordance with Business and Professions
Code section 6086.10 and are enforceable both as provided in Business and Professions
Code section 6140.7 and as a money judgment.

?

preceding is a true copy of W order of this Court as

dapof ^
By:.

CAOTIL-fiAKflUYE

AHULL2B1-M
.. beoutv V.—^

ChiefJustice

j

RECEIVED

apr h am

ca'nRflt«MI!«IBIWinON
ADM. EXHIBIT #1 -000001

\

Additional material
from this filing is
available in the
Clerk's Office.

